IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

ALFONSO PERCY PEW,

No. 3 EAP 2020

Appellant

Appeal from the Order of
Commonwealth Court dated
November 21, 2019 at No. 581 MD
2018.

v.

JOHN E. WETZEL, SECRETARY OF
CORRECTIONS, SHIRLEY M. SMEAL,
EXECUTIVE DEPUTY SECRETARY OF
CORRECTIONS, STEVEN GLUNT,
REGIONAL DEPUTY SECRETARY OF
CORRECTIONS, MARCIA NOLES,
BUREAU HEALTH CARE SERVICE
DEPARTMENT OF CORRECTIONS,
ULRICH KLEMM, BUREAU TREATMENT
SERVICES DEPARTMENT OF
CORRECTIONS, TRACEY SMITH,
DIRECTOR RELIGIOUS
ACCOMMODATION COMMITTEE
DEPARTMENT OF CORRECTIONS,
MAHALLY, SUPERINTENDENT PA.
D.O.C., DEMMING, DEPUTY PA. D.O.C.,
RONALD OTT, FOOD SERVICE
MANAGER PENNSYLVANIA
DEPARTMENT OF CORRECTIONS, LT.
FILIPIAK, PENNSYLVANIA DEPARTMENT
OF CORRECTIONS, JOHN DOE, DEPUTY
PENNSYLVANIA DEPARTMENT OF
CORRECTIONS, SUED IN INDIVIDUAL
AND OFFICIAL CAPACITIES FOR
MONETARY DAMAGES,

/

Appellees

ORDER

PER CURIAM

DECIDED: July 21, 2020

*
■f
■9

AND NOW, this 21st day of July, 2020, the order of the Commonwealth Court is
AFFIRMED.

Judgment Entered 07/21/2020

Jetsh w. Person Jr.yjsquire
Deputy Prothonotary
Supreme Court of Pennsylvania

3 EAP 2020 - 2

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Alfonso Percy Pew,
Petitioner

Appendix A
•

•

i

• -4

V.

No. 581 M.D. 2018
Submitted: August 9,2019.

John E. Wetzel, Secretary of Corrections,
Shirley M. Smeal, Executive Deputy
Secretary of Corrections, Steven Glunt,
Regional Deputy Secretary of Corrections,
Marcia Noles, Bureau Health Care Service
Department of Corrections, Ulrich Klemm,
Bureau Treatment Services Department of
Corrections, Tracey Smith, Director Religious
Accommodation Committee Department of
Corrections, Mahally, Superintendent PA. D.O.C.,
Demming, Deputy PA. D.O.C., Ronald Ott,
Food Service Manager Pennsylvania
Department of Corrections, Lt. Filipiak,
Pennsylvania Department of Corrections,
John Doe, Deputy Pennsylvania Department
of Corrections, Sued in individual and official
capacities for monetary damages,
Respondents
BEFORE:

**•

HONORABLE MARY HANNAH LEAVITT, President Judge
HONORABLE ROBERT SIMPSON, Judge1 ' /
•
HONORABLE MICHAEL H. WOJCIIC, Judge

:

OPINION NOT REPORTED
MEMORANDUM OPINION
BY PRESIDENT JUDGE LEAVITT
>..

FILED: November 21, 2019

Before this Court in qur original jurisdiction are the preliminary

^

i,

’\ b

N

1

f

!

;

<

-

1 ■

• r ;

objectiqns of John E. Wetzel, Secretary of Corrections, to the pro se civil rights
complaint filed by Alfonso Percy Pew (Inmate). The complaint seeks a declaratory
i

Tliis matter was assigned to this panel before September 1, 2019, when Judge Simpson assumed
the status of senior judge.
. *.

!

judgment, injunctive relief, .and monetary damages for Wetzel’s alleged violation of
Inmate’s constitutional rights. After review, we sustain the preliminary objections
and disrpiSs the complaint.
On August 23,2018, Inmate filed a complaint in the Court of Comihon
Pleas,of Cumberland County (common..pleas coprt) against Wetzel and numerous ;
other employees of the Department of Corrections (Department) in their individual
and, official capacities (collectively Department Respondents).2 The complaint
averred that while Inmate was incarcerated at the State Correctional Institution at
Dallas (SCI-Dallas), he. was entitled to a vegan diet for religious reasons. For eight
days in October of 2016, however, Inmate was given bologna sandwiches that made
him sick. . Complaint at 3, ^3.

The complaint also averred that Department

Respondents • have adopted a policy to feed bologna sandwiches to inmates in
medical pbservation rooms. Inmate was repeatedly denied his vegan diet despite
filing grievances. Department Respondents were aware of the situation but made
‘•‘excuses-'such as prison lock down.” Complaint at 5, ^[6. The complaint further
averred that a corrections officer destroyed Inmate’s property in retaliation for a
complaint he filed under the Prison Rape Elimination Act of 2003.3 Department
Respondents refused to “properly investigate and compensate [Inmate] for [his]
personal property loss.” Complaint at 9, ^16.

2 The named respondents are Shirley M. Smeal, Executive Deputy Secretary of Corrections; Steven
Glunt, Regional Deputy Secretary of Corrections; Marcia Noles, an official with the Department’s
Bureau of Health Care Services; Ulrich Kiemm, an official with the Department’s Bureau of
Treatment1 Services; Tracey Smith, Director of the Department’s Religious Accommodation
Committee; Superintendent Mahally; Deputy Demming; Ronald Ott, the Department’s Food
Service Mafiager; Lieutenant Filipiak and Deputy John Doe.
3 34 U.S.C.; §§30301-30309.
2

Based upon the foregoing allegations, Inmate asserted a civil rights
action under 42 U.S.C. §19834 alleging violations of his rights under numerous
provisions of the Pennsylvania and United States Constitutions.5 Inmate sought a
declaratory judgment that his constitutional rights were violated; punitive and
compensatory damages from each Department Respondent; and an injunction
directing Department Respondents to serve him a vegan diet.
The common pleas court transferred the matter to this Court pursuant
to Section 761(a)(1) of the Judicial Code, 42 Pa. C.S. §761(a)(l).6 By order of
4 42 U.S.C. §1983 provides in pertinent part:
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects,; or causes to
be subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by theConstitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress....
Inmate asserted that Department Respondents violated his rights under the following provisions
of the Pennsylvania Constitution: Article I, Section 1 (inherent rights of mankind); Article I,
Section 3 (religious freedom); Article I, Section 7 (freedom of press and speech); Article I, Section
8 (security from searches and seizures); and Article I, Section 13 (bails, fines and punishments).
PA. Const, art. I, §§1, 3, 7, 8, 13. Inmate alleged violations of his rights under the First
Amendment to the United States Constitution (free exercise of religion) and the Eighth
Amendment to the United States Constitution (prohibition of cruel and unusual punishments).
U.S. Const, amends. I, VIII.
’
:
6 Inmate filed a motion with this Court “to fix jurisdiction and commence action,”in which he
asserted that the common pleas court rather than this Court has original jurisdiction over his claim
for monetary damages. Application for Relief (10/19/2018). By order of November 1, 2018, this
Court denied Inmate’s motion. Section 761(a)(1) of the Judicial Code provides:
(n) General rule.-The Commonwealth Court shall have original jurisdiction of
all civil actions or proceedings:
<

i •.

(1) Against the Commonwealth government, including any official
thereof acting in his official capacity, except .
(i) actions or proceedings in the nature of
applications for a writ of habeas corpus or post­
conviction relief not ancillary to proceedings within
the appellate jurisdiction of the court;

3

November 28,2018, this Court dismissed Inmate’s complaint against all Department
Respondents, except for Secretary Wetzel, because Inmate had failed to serve the
complaint as required by Penhsylvafiia'Rule of'Appellate Procedure 1514(c), Pa.
t

R.A.P. 1514(c),

■

Secretary Wetzel, the only remaining respondent, has filed

preliminary qbj eptions in the nature of a .demurrer seeking jto dismiss ,the complaint
in its entirety.
In ruling on preliminary objections, this Court “must accept as true all
i

well pleaded material allegations in the petition for review, as well as all inferences

(ij) . eminent domain proceedings;
(iii) actions or proceedings conducted pursuant to
Chapter 85 (relating to matters affecting, government
units);
(iv) actions or proceedings conducted pursuant to
the act of May 20,1937 (P.L. 728, No. 193), referred
to as the Board of Claims Act; and
(v) actions or proceedings in the nature oftrespass
as to which the Commonwealth governmentformerly
enjoyed sovereign or other immunity and actions or
proceedings in the nature of assumpsit relating to
such actions or proceedings in the nature of trespass.
42 Pa. C.S. §761(a)(l) (emphasis added). Our Supreme Court has held that this Court lacks
original jurisdiction over tort actions for monetary damages that are premised on either common
law trespass or a civil action for deprivation of civil rights under 42 U.S.C. §1983, because they
are within the exclusion found'in Section 761(a)(l)(V). Balshy v. Rank, 490 A.2d 415 (Pa, 1985).
HoWever, tRis Court has original jurisdiction over actions for injunctive and declaratory relief
because-they are, not actions “as to which the Commonwealth government formerly enjoyed
sovereign or other immunity.” 42 Pa. C.S. §761(a)(l)(v); Fccwber v. Cohen, 532 A.2d 429, 433
(Pa. 1987). Further, to the extent.prescribed by general rule, this Court has ancillary jurisdiction
over any claim that is related to a claim within its exclusive'original jurisdiction. 42 Pa. C.S.
§761(c). See also Diess v. Department of Transportation, 935 A.2d 895 (Pa. Cmwlth. 2007)
(where alleged statutory violations and equity claims outweighed allegations of common law
nuisance, Section 261(c) of the Judicial Code vests this Court with ancillary jurisdiction to hear
the matter). Thus, even though this Court would not normally have jurisdiction over Inmate’s
claim for monetary damages, we do in this case because it is ancillary to Inmate’s requests for
injunctive and declaratory relief.

4

■

reasonably deduced therefrom.” Buoncuore v. Pennsylvania Game Commission
.

i

830 A.2d 660, 661 (Pa. Cmwlth. 2003). We are not required to accept as true
“conclusions of law, unwarranted inferences from facts, argumentative allegations,
oi expressions of opinion.” Id. For this Court to sustain preliminary objections, “it
must appear with certainty that the law will permit .no recovery[.]” McCord v.
Pennsylvania Gaming Control Board, 9 A.3d 1216,. 1219 (Pa. Cmwlth. 2pl0). ' If
there is any doubt, this Court shoulfi overrule the preliminary objections. Id. This
Court “may sustain a demurrer only when a petitioner has failed to state a claim for.
which relief may be granted.” Armstrong County Memorial Hospital v. Department
ofPublic Welfare, 67 A.3d 160, 170 (Pa. Cmwlth. 2013).
Section 1983 provides a remedy for deprivations, of federally protectedrights committed by persons acting under color of state law. In order to state a claim
undei Section 1983, a plaintiff must (1) allege a violation of rights secured by the
United States Constitution or the laws of the United States and (2) show that the
alleged deprivation was committed by a person acting under the color of statefaw.
Owens v. Shannon, 808 A.2d 607, 609 n.6 (Pa. Cmwlth. 2002). Notably, Section
1983 damage actions against state officials in their official' capacity‘are barred
because a suit against a state official acting in his or her official capacity constitutes
a suit against the state itself, which is not a “person” under Section 1983. Watkins '
v. Department of Corrections, 196 A,3d 272, 275 (Pa.: Cmwlth. 2018) (quoting Will
v. Michigan Department ofState Police, 491 U,S. 58, 64-71 (1989)). Nevertheless,
■i

'•

.•

\

•,

'•)

<5,

b

if

,y

,

..

>t~

a state 'official acting in his or her official capacity, when sued for injunctive relief,'
is a “person” under Section 1983 because “official-capacity actions for prospective
relief are not treated as an action' againsrtlie sTafe.”' Verfichia v. Department of
Revenue, 639 A.2d 957, 962 n.l 1 (Pa. Cmwlth. 1994). Further, state officials “ may
5

i■ .

be sued in their individual capacities and found liable for damages for violating
protected rights while in the-course of their employment.” Schnupp v. Port Authority
ofAllegheny County, 710 A.2d 1235, 1238 n.4 (Pa. Cmwlth. 1998). Finally, a claim
for monetary damages to remedy a violation of constitutional rights cannot be based
on vicarious liability or respondeat superior, to state such a cause of action agairtst
a government official under Section 1983, the plaintiff must allege that the
individual defendant was personally involved in the alleged wrongdoings. Watkins,
196. A.3d at 276.
. ■ ; In his complaint, Inmate does not allege any specific wrongdoings
perpetrated upon him by Secretary Wetzel. The complaint avers that Wetzel,
together with, the other Department Respondents, adopted a policy that inmates
housed in medical observation rooms would receive bologna sandwiches. It avers
that. Wetzel ;was aware of Inmate’s diet restrictions but did not take action. The
grievance attached to the complaint indicates, however, that Inmate started to receive
his vegan diet on October 20, 2016, after the “medical and officer: in [the medical
observation room]” was informed of the issue. Complaint, Exhibit 1. The complaint
does not'identify Inmate’s religious affiliation nor does it allege that Wetzel was
personally involved in denying Inmate a vegan diet. Likewise, the complaint does
not allege that Wetzel was personally involved in destroying Inmate’s personal
property in retaliation for his complaint under the Prison Rape Elimination Act. In
■

V

short, Inmate’s conclusory complaint fails to specify how Wetzel infringed on his
.■■■

free exercise of religion or any other rights secured by the United States and
Pennsylvania Constitutions. To the extent Inmate seeks to hold Wetzel vicariously
liable for the actions of his subordinates, his claim must be dismissed. Watkins, 196
A.3d at 276.
6

In sum, Inmate has failed to allege any specific acts on the part-of
Wetzel that, if accepted as true, would establish his liability or entitle Inmate to the
lelief that he seeks. Because the complaint does not state a legally cognizable cause
of action against Wetzel, we sustain Wetzel’s preliminary objections in the nature of
i

a demurrer and dismiss Inmate’s complaint with prejudice.
(

i

a

MARY HANNAH LEAVITT, President Judge

;

4
V

I
i

.1

;

;
>.

(
;

/
\.
;

i

i

\

»

.* .
:

7

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Alfonso .Percy Pew,
Petitioner
No. 581 M.D. 2018

v.
John E. Wetzel, Secretary of Corrections,
Shirley M. Smeal, Executive Deputy
Secretary of Corrections, Steven Glunt,
Regional Deputy Secretary of Corrections,
Marcia Noles, Bureau Health Care Service
Department of Corrections, Ulrich Klemm,
Bureau Treatment Services Department of
Corrections, Tracey Smith, Director Religious
Accommodation Committee Department of
Corrections, Mahally, Superintendent PA. D.O.C.,
Demming, Deputy PA. D.O.C., Ronald Ott,
Food Service Manager Pennsylvania
Department of Corrections, Lt. Filipi.ak,
Pennsylvania Department of Corrections,
John Doe, Deputy Pennsylvania Department
of Corrections, Sued in individual and official
capacities for monetary damages,
Respondents

ORDER
AND NOW, this 21st day of November, 2019, the preliminary
objections in the nature of a demurrer to the complaint filed by Alfonso Percy Pew
are SUSTAINED, and the. complaint is DISMISSED with prejudice.

k(\AAAI \

____________________

MARY HANNAH LEAVITT, President Judge
Certified from the Record

NOV il 2019
And Order Exit

